GENERAL SERVICES ADMINISTRATION
OFFICE OF INSPECTOR GENERAL




         AUDIT OF BUILDING ACCESS THROUGH
                    SMART CARDS
         REPORT NUMBER A040111/P/R/R05002
                   January 14, 2005
        AUDIT OF BUILDING ACCESS THROUGH SMART CARDS
               REPORT NUMBER A040111/R/P/R05002

                           TABLE OF CONTENTS


EXECUTIVE SUMMARY                                                        i

INTRODUCTION                                                             1

     Background                                                          1

     Objectives, Scope, and Methodology                                  3

RESULTS OF AUDIT                                                         4

     PBS has Made Progress but More Needs to be Done                     4

           Lack of Supporting Infrastructure                             5

           Inconsistent Controls                                         6

     The Smart Card Implementation will be Impeded by Several Factors    8

           Need to Integrate and Coordinate the Agency’s Security
           Practices                                                     8

           Interoperability Issues                                       9

           Procurement Issues                                           10

     The Smart Card Implementation will be Impacted by Recent
     Developments.                                                      12

     Conclusion                                                         14

     Recommendations                                                    15

     Management Controls                                                16

     Management Comments                                                16

APPENDICES

     Management’s Response                                              A-1

     Report Distribution                                                B-1
          AUDIT OF BUILDING ACCESS THROUGH SMART CARDS
                 REPORT NUMBER A040111/R/P/R05002

EXECUTIVE SUMMARY

Purpose
The audit objective was to determine whether the Public Buildings Service (PBS)
is effectively implementing a smart card credential program for security over
physical access to facilities managed by the General Services Administration
(GSA).

Background
Smart card technology is attractive because it can provide secure and accurate
identity verification in the convenience of a small plastic card making it ideal for
electronic commerce, logical access to information systems, and physical access
to facilities. Within the Federal government, the objective of adopting smart card
technology was to enable all employees to use one card for a wide range of
purposes, including travel, small purchases, and building access. Although GSA
has provided guidance and procurement vehicles for agencies to implement
smart cards, until recently it had made only limited progress in implementing
smart cards within the agency.

Results in Brief
PBS’s effectiveness in implementing an agency-wide credential using smart card
technology has been mixed. Recently, PBS established a uniform agency
credential with smart card capabilities and began to issue these card credentials.
However, the implementation of the smart card credentials is hindered by the lack
of a vision for incorporating the smart card credential as a component of agency-
wide security. As a result, the credentialing program will have only a limited
impact on the security over physical access to buildings and facilities due to a
variety of factors including inconsistent controls and a lack of supporting
infrastructure. Further, other aspects of the smart card initiative such as
integrated security practices, interoperability, and procurement issues will also be
problematic for an effective implementation. Moreover, PBS’s efforts will be
impacted by a new Presidential directive on identification standards for Federal
employees and contractors as well as the Federal Protective Service (FPS)
project that will oversee smart card access to buildings and facilities.

Recommendations
We recommend that PBS coordinate with other agency officials in the
development of the vision, goals, and scope for GSA’s smart card implementation
as part of the agency’s security protocol; use the vision, goals, and scope to
reassess the smart card credential requirements and determine the estimated
funding needs for GSA’s smart card credential including the costs for
implementation, operations, and infrastructure; reestablish a physical security
function within the PBS organization; re-evaluate and improve the management
controls related to smart cards and issue additional detailed guidance as


                                         i
necessary; and ensure smart card credential and physical access system
procurements comply with acquisition regulations and policies, including
competition.

Management Comments
In his January 7, 2005 response to the draft audit report (see Appendix A), the
Commissioner of the Public Buildings Service (P) indicates concurrence with the
report recommendations.




                                       ii
              AUDIT OF BUILDING ACCESS THROUGH SMART CARDS
                     REPORT NUMBER A040111/R/P/R05002

INTRODUCTION

Background

Smart card technology is attractive because it can provide secure and accurate
identity verification in the convenience of a small plastic card. A Smart Card
resembles a credit card in shape and size and is embedded with an integrated
circuit chip that acts as a microcontroller or computer. The chip interacts with a
card reader to transact a process and provides the necessary components of
system security for the exchange of data throughout almost any type of network.
While smart card technology has many applications, the enhanced level of
security it provides makes it ideal for electronic commerce, logical access to
information systems, and physical access to facilities.

The impetus for applying smart card technology to government operations has
been the past and current Administrations’ push to exploit information
technology, increase efficiency, streamline organizations, and eliminate barriers
between organizations. The objective of adopting smart card technology was “…
so that ultimately, every employee will be able to use one card for a wide range of
purposes, including travel, small purchases, and building access.”1 To shepherd
this transition to smart card technology, the Office of Management and Budget
requested that the General Services Administration (GSA) take the lead in
working with departments and agencies to develop the Federal business tools of
electronic commerce and the government card services in the Federal
Government in July 1996.

GSA’s Role in Smart Cards

GSA has done several things to assist the adoption of smart cards. In August
1998, it established the Office of Smart Card Initiatives within the Administrator’s
Office to oversee the implementation of smart cards government-wide, as well as
put GSA in the forefront of implementing an in-house smart card program. In
addition, GSA implemented a pilot program to test Government smart cards and
related systems. In July 1999, the Office of Smart Card Initiatives was
transferred to the Federal Technology Service (FTS). Under FTS, GSA
established the smart card business line and subsequently awarded the Smart
Identification Card contract that provides Federal agencies with access to smart
card services, project management, training assistance, and support. Despite
this advancement as a business line, GSA’s internal implementation of smart
cards made little progress.



1
    The Presidential Budget for Fiscal Year 1998


                                              Page 1
On January 23, 2001, in response to an audit of GSA’s internal smart cards
implementation,2 GSA transferred the responsibility for implementing GSA’s
internal smart card program from FTS to the Office of the Chief People Officer
(CPO). Under this initiative, CPO established a Smart Card Working Group that
included representatives from multiple organizations including CPO, the Office of
the Chief Financial Officer, the Office of the Chief Information Officer, the Office
of Governmentwide Policy (OGP), FTS, the Public Buildings Service (PBS), and
most regions. However, this effort stalled when a fiscal year 2003 funding
request of $900,000 to implement smart cards in GSA’s Central Office was not
approved. Finally, on August 15, 2003, PBS was charged with developing and
managing the GSA nationwide credential and building pass program based on
smart card technology.

In the fall of 2003 as PBS was moving forward, a pilot project initiated by the
Northeast and Caribbean Region (Region 2) implemented a smart card system in
two multi-tenant buildings in New York City. Using a project team that included
representatives from PBS, FTS, and the Federal Protective Service, it has issued
Smart Card identification to all GSA employees as well as tenant agency
personnel in the buildings and equipped the buildings with readers and
barriers/portals. The smart card identifications are used alone to allow entry
through the barriers/portals and in conjunction with a personal identification
number and/or biometric fingerprint during heightened periods of alert.

Federal Smart Card Activities

The development of smart card technology is dynamic and the Federal
government is attempting to establish uniform standards. To date, several
agencies and organizations within the Federal government have been issuing
guidance, policies, and specifications for smart cards. Key activities include the
following:
    • In August 2004, the White House issued a Homeland Security Presidential
       Directive3 to establish a mandatory, Government-wide standard for secure
       and reliable forms of identification issued by the Federal Government to its
       employees and contractors.
    • The GSA’s OGP has issued the Government Smart Card Handbook to
       share lessons learned and provide guidance to Federal agencies
       contemplating the development and deployment of smart card identity
       systems. This handbook was first issued in October 2000 and an update
       was released in February 2004.
    • The National Institute of Standards and Technology (NIST) leads the
       development of the Government Smart Card – Interoperability Specification
       (GSC-IS), which establishes the technical specifications and standards for
       smart cards in the Federal government. The GSC-IS provides solutions to

2
  Review of Smart Card Initiatives, report number A000874/T/W/R00019, dated September 11,
2000.
3
  HSPD-12.


                                          Page 2
       a number of the interoperability challenges associated with smart card
       technology. NIST issued version 2.1 of the specification in July 2003.
   •   In March 2004, Federal Identity Credentialing Committee (FICC) issued
       guidance on the use of smart card based technology in badge,
       identification, and credentialing systems within the Federal sector, to help
       agencies plan, budget, establish and implement credentialing and
       identification systems for Federal government employees and their agents.
       The document applies specifically to the use of smart card based
       platforms in the credentialing and identification activities of Federal
       government employees, contractors and affiliates supporting Federal
       agencies.
   •   The Physical Access Interagency Interoperability Working Group
       (PAIIWG) within the FICC developed a standardized approach for the
       procurement of physical access control systems and components to
       ensure that agencies deploy equipment that meet both their specific needs
       and, at the same time, facilitate cross-agency interoperability. The
       guidance provides for access systems with low, medium, and high
       protection profiles.

Objective, Scope, and Methodology

The audit objective was to determine whether PBS is effectively implementing a
smart card credential program for security over physical access to GSA facilities.
We performed field work at the National Office and visited four regions: the New
England Region (Region 1), the Northeast and Caribbean Region (Region 2), the
Mid-Atlantic Region (Region 3), and the Great Lakes Region (Region 5).

To gain an understanding of the program, we held discussions with the PBS
project team and with regional representatives involved in the implementation of
the program and reviewed applicable guidance. We met with the credentialing
official in the GSA Central Office, Office of Emergency Management. We
reviewed the PBS task order and other procurements related to the smart card
credential implementation. Additionally, we met with the FTS project manager.
To gain a better understanding of smart card technology and requirements, we
also met with officials in OGP as well as interagency personnel working with the
Interagency Security Council, the Government Smart Card Interagency Advisory
Board, and the FICC. Lastly, we spoke to officials from the Department of
Homeland Security on their building security initiative.

The fieldwork was conducted between January and July 2004. The audit was
performed in accordance with generally accepted government auditing
standards.




                                      Page 3
           AUDIT OF BUILDING ACCESS THROUGH SMART CARDS
                  REPORT NUMBER A040111/R/P/R05002

RESULTS OF AUDIT


The Public Buildings Service’s (PBS) effectiveness in implementing an agency-
wide credential using smart card technology has been mixed. Recently, PBS
established a uniform agency credential with smart card capabilities and began to
issue these card credentials. However, the implementation of the smart card
credentials is hindered by the lack of a vision for incorporating the smart card
credential as a component of agency-wide security. As a result, the credentialing
program will have only a limited impact on the security over physical access to
buildings and facilities due to a variety of factors including inconsistent controls
and a lack of supporting infrastructure. Further, other aspects of the smart card
initiative such as integrated security practices, interoperability, and procurement
issues will also be problematic for an effective implementation. Moreover, PBS’s
efforts will be impacted by a new Presidential directive on identification standards
for Federal employees and contractors as well as the Federal Protective Service
(FPS) project that will oversee smart card access to buildings and facilities.

PBS has Made Progress but More Needs to be Done

PBS has undertaken the responsibility for developing and implementing a
nationwide standard credential system using smart card technology for the
General Services Administration (GSA). PBS led the revision of the Credentials
and Passes handbook4 to establish a standard credential for nationwide use and
establish the technical specifications and topography as well as the
responsibilities and accountability for the processing of the credentials. PBS also
awarded a task order through the GSA Smart Card Contract for smart card
identifications and their issuance. To date, PBS has ordered 18,000 cards. In
January 2004, GSA began registering and enrolling employees in GSA Central
Office, including the Federal Technology Service (FTS) and the Federal Supply
Service (FSS), as well as in 3 additional regions5 through a central credentialing
system database set up by the contractor. In May 2004, GSA began issuing
smart cards to employees in GSA Central Office and those regions6. In addition,
the project team has been working internally with regional personnel to prepare
for the registration, enrollment, and issuance process. The project team has also
been working externally with the Federal Identity Credentialing Committee and
leads the Topology Working Group to develop government wide standards.



4
  GSA Order ADM P 7640.2, dated August 15, 2003.
5
  The New England (1), Mid-Atlantic (3), and Southeast Sunbelt (4) Regions.
6
  As of August 4, 2004, cards had been manufactured for approximately 62% of the employees in
GSA Central Office and Regions 1, 3, and 4.


                                           Page 4
According to the project team, the goal is to issue the smart card credentials to
GSA employees, contractors, and tenant agency employees through a central
credentialing system database. Then the cards and the database can be used to
control access to GSA facilities using the smart card features. The database can
be used as a control over the card through features such as an automatic
expiration date and the ability to terminate a card in the database prior to the
expiration date.

The card has security features for physical access such as a challenge-response
system that enables a specialized reader to validate the card as well as
identification information for each employee including a photograph, a fingerprint
biometric, and a personal identification number (PIN). The card also includes
anti-counterfeiting measures such as a hologram, ultra violet ink, and micro
printing. These features improve the ability to authenticate both the card and the
cardholder. What is lacking, however, is a comprehensive vision for identity
management and agency security to ensure these capabilities are used
optimally. To date, PBS has concentrated on issuing the credentials; but without
incorporating the supporting infrastructure and stronger controls, the benefits of
the smart card technology will not be achieved and the credentials, in many
locations, will be relegated to a picture ID.

Lack of Supporting Infrastructure

PBS’s implementation of smart cards will have only a limited impact on the
physical access security of GSA facilities in the immediate future because it does
not have the infrastructure to use the cards electronic security capabilities nor
has it allocated funding to install the infrastructure. In adopting its card, PBS is
incorporating many technology based security features such as a challenge and
response card validation methodology and a centralized card termination
capability, but as cards are issued, only a limited number of buildings will be able
to take advantage of these capabilities in the near future. According to the PBS
project team, PBS plans to equip only major Central Office locations7 and provide
some funding to equip one building in each region with smart card access
systems. As a result, few buildings will have the infrastructure necessary to
actually take advantage of the smart card’s security capabilities.

In addition, PBS has not allocated any funding to install additional systems in the
future. Currently, the smart card implementation does not have a budget and is
operating on a “pay as you go” basis using PBS National Office funds. PBS has
spent approximately $350,0008 to date for the credentials and their issuance, but
does not have any funds allocated for the access systems or other supporting

7
  This includes new readers for the GSA Central Office Building and a refitting of the readers at
FTS locations. Readers for the FSS headquarters will not be installed until it is relocated in FY
2006.
8
  This only includes orders placed by the PBS project team through FTS. It does not include other
costs incurred by the project team such as FTS fees, travel, and salaries, nor does it include
regional expenditures.


                                             Page 5
infrastructure. In addition, the project has not taken steps to estimate a budget
for the supporting infrastructure. PBS has yet to inventory its buildings’ current
access systems or risk ratings to develop an estimate of future funds needed to
implement an infrastructure for the GSA smart card credential. As such, the
future costs for access systems will be the responsibility of regional management
in conjunction with tenant agencies and will not be provided by PBS directly.

As a result, without a current supporting infrastructure or a funding methodology
to install the supporting infrastructure, the smart card credentials will primarily be
used as a picture ID at many locations. Although GSA may benefit from a
uniform credential that incorporates anti-counterfeiting features and that is
recognized nation-wide, it does not optimize the security capabilities of a smart
card.

Inconsistent Controls

The smart card program needs consistent controls to ensure the integrity of the
system and these controls must exist within the context of an agency vision of
how smart card credentials will be used. The controls for the GSA smart card
credential are outlined in the Responsibilities and Accountability sections of the
Credentials and Passes handbook. However, the handbook provides only a
broad framework for the administrative processes of issuing and terminating the
credential cards. In addition, many of the policies in the handbook need
strengthening as shown in the following examples:

    •   The smart card credential permits high-level authentication of both the
        card and the cardholder. However, the issuance process for smart card
        credentials allows for new employees to obtain a card prior to a
        background check. GSA’s security policy does not require background
        checks for most new employees until after they begin working, while the
        credential policy calls for new employees to be entered into the
        credentialing database as soon as they are hired and have no
        requirements for the background check to be completed prior to obtaining
        a card. Additionally, the credential policy only requires contractors
        performing work requiring a moderate or high-risk clearance to have a
        background check or clearance. Several prior audits9 have identified
        contractor background checks as a security weakness as these
        clearances often are not performed or updated when required.

    •   Although the Credentialing Office is required to maintain an electronic
        system of checks and balances and controls, the credentialing system
        currently does not have any reporting or querying capabilities that could be
        used as part of a system of controls or checks and balances10. In fact,
9
  Audit Report Numbers A030086/P/2/R04001, A020143/P/5/R03014, A81543/P/5/R99510,
A995160/P/5/R00007, A001053/P/5/R01020, and A010230/P/5/R02023.
10
   The task order specified that the card management system must track ID expiration, application
and container management, revocation, smart card deactivation, and basic and ad hoc report


                                             Page 6
        when credentialing officials were verifying individuals prior to card
        issuance, they could not query the system to identify personnel whose
        data was incomplete because the database only provides data at the
        individual level and cannot perform queries at a group level. For example,
        the system could not be queried to identify personnel who had pictures
        and fingerprints taken, but had not registered on-line. Moreover, to
        actually verify the data as correct, the registration data had to be manually
        verified to information from GSA’s human resource database.

    •   According to the handbook, the GSA Office of the Chief Information Officer
        (CIO) has the responsibility for operating and maintaining the credential
        system hardware and software, as well as being the point of contact for
        changes to the database. However, although the GSA CIO has agreed to
        house the credentialing system’s server in its secure space, it has not
        taken any more responsibility for any other aspects of the system.

    •   Ensuring updated employee information in the credentialing database is
        unreliable as it is dependent on GSA employees to submit revisions to
        their supervisor who submits the data to the Credentialing Office. Data
        updates would be more reliable if the credentialing system could be
        updated with data from GSA’s human resource database; however, the
        PBS task order did not provide for the credentialing system to interact with
        any GSA systems.

    •   According to the handbook, supervisors collect the credentials from
        separating employees and the Office of the Chief People Officer (CPO) will
        return the credentials to the credentialing office. However, according to a
        representative from CPO, supervisors are responsible for ensuring
        separating employees return their credential to the credentialing office.

    •   The Office of Emergency Management (OEM) is charged with conducting
        reviews of GSA’s Central Office and the National Capital Region (NCR) to
        ensure compliance with agency policies and guidance. However, the
        OEM is the credentialing office for Central Office and has a conflict of
        interest in reviewing its own operations. In addition, the credentialing
        official in OEM stated that his authority does not extend to NCR and he
        would work to revise the handbook.

The handbook provides only part of the guidance necessary for a successful
implementation; an agency vision is needed to provide a contextual framework.
We recognize that balancing GSA’s and tenant agencies’ security needs with
public access is a complex and difficult task. What we have found though, is that
key decisions such as which buildings should have card readers, whether to
integrate physical barriers with the authentication process, and when the PIN and

generation. However, in a discussion, a representative of the vendor stated that if PBS needed
reports, the function could be programmed into the system for a fee.


                                            Page 7
biometric features should be used are not addressed and are left to the individual
regions to determine. Further, the regional Credentialing Offices are responsible
for establishing agreements with tenant agencies, but there is no guidance with
regard to what needs to be included in the agreement. Without reliable and
consistent policies and procedures, it will be difficult to maintain a strong uniform
approach to security.

The Smart Card Implementation will be Impeded by Several Factors

Other factors will also impede PBS’s implementation of smart cards. These
factors include the need to integrate the agency’s security practices,
interoperability, and procurement issues.

Need to Integrate and Coordinate the Agency’s Security Practices

PBS’s ability to effectively implement smart card credentials is affected by other
security responsibilities within the agency that are separate and distinct from
implementing the smart card credentials. To obtain the most benefit from this
implementation, the agency’s security practices need to be integrated and
coordinated with the implementation of the smart card credential at both the
functional and organizational levels. Although, in recent discussions, the Deputy
Commissioner has indicated that PBS has begun coordinating on these issues
with other organizations within the agency, GSA needs to address several
agency-wide security functions and responsibilities that are necessary to properly
implement smart cards.

For example, personnel security is vital to a smart card implementation because
it establishes the identity of the smart card recipient and ensures that the
recipient meets the suitability requirements to become a government employee
and receive a card. However, as discussed earlier, GSA’s personnel security
policy and procedures, dated January 15, 1998, do not require this determination
to be made for most GSA positions until an employee has already begun
working. As a result, employees may become eligible for a smart card before
their identities are confirmed and their security requirements are investigated.

In addition, since smart cards can enhance both physical and logical access11
security, these functions should have representation on the PBS project team so
that the program can incorporate their needs. However, GSA has not fully
addressed these functions within the agency. With regard to physical security,
FPS handled those policies and practices in the past, but that organization was
transferred to the Department of Homeland Security in March 2003. To date,
GSA has yet to fill this void. Within PBS, the most recent update to its
organization manual provided for a subject matter expert for security, but the
position has not been filled and the function is not being performed. Likewise,
logical security function is not being integrated with smart cards either. The GSA
11
  Logical security is responsible for access to information technology such as computer networks
and applications.


                                            Page 8
CIO IT Strategic Plan calls for the agency to pursue technologies such as smart
cards that offer solutions to improve logical access control. However, currently,
GSA is not actively pursuing the use of smart cards for logical security and the
GSA CIO has not actively participated on the PBS project team.

The PBS project team also does not have a means to coordinate the smart card
responsibilities of other GSA organizations as previously discussed. Although
PBS is charged with managing the smart card credential and building pass, all
GSA organizations are stakeholders. Not only is the smart card being issued to
all GSA employees, but also many organizations will be involved in the smart
card operations. According to the handbook, the CPO is responsible for notifying
the Credentialing Office of separating employees, the CIO is responsible for
operating the credentialing system hardware and software, the Office of the
Administrator and regional management will be devoting employees to the
regional credentialing office, and all service and staff offices and regional
management must designate supervisors who can approve employee
applications for the smart card credentials. However, these stakeholders are not
members of the project team and so PBS lacks the communication channels
necessary to coordinate and collaborate with the other GSA organizations in
performing their responsibilities related to the smart card credentials.

Interoperability Issues

The federal government intends to adopt smart card technologies so that a card
issued by one agency can be used for a wide range of purposes throughout the
government. However, the GSA credential includes two features, the fingerprint
biometric and the electronic challenge-response card validation, which hinder this
goal. The incorporation of these features into physical access control systems
will limit the ability of cards issued by other agencies to be used within GSA
managed buildings and facilities.

Biometric Information: According to the Federal Identity and Credentialing
Committee (FICC) smart card policy12, each smart card should have the
capability for a biometric. However, to date, the federal smart card community
has not adopted biometric technical specifications and most vendors offer
biometric models that are implemented using proprietary technology, which limits
interoperability. Likewise, GSA’s smart card uses a fingerprint biometric that is
based on proprietary technology and as such, the interoperability of the GSA
access systems will be limited. As there are many variations of biometrics and
readers are primarily geared toward one specific version, cards issued by other
agencies may not have the full capability to access GSA facilities.

Challenge-Response Card Authentication: GSA’s smart cards will employ an
electronic challenge-response authentication method, known as the High

12
 Policy Issuance Regarding Smart Card Systems for Identification and Credentialing of
Employees issued in March 2004.


                                           Page 9
Assurance Profile13. This methodology is an enhanced security feature in which
an encrypted algorithm stored on the card’s memory interacts with a specialized
reader to verify that the card is valid and issued by a legitimate government
organization. The readers will reject smart cards that do not have the correct
algorithm. The developer of this methodology is a subcontractor on PBS’ task
order. GSA is one of only a few agencies that have adopted this feature.

As a result of the adoption of these features, PBS has created a specification for
GSA buildings that is not readily interoperable with smart cards issued by the
majority of other agencies. In fact, GSA is already experiencing interoperability
issues internally. The GSA Northeast & Caribbean Region (Region 2) began
implementing a smart card system at 26 Federal Plaza in New York City prior to
the PBS’ initiative and used a different contractor. These cards were distributed
to all Federal employees in the building – GSA employees as well as other federal
tenants. These cards do not have the same biometric as the GSA card and do
not have the challenge-response algorithm. As a result, the cards and the card
reader equipment at 26 Federal Plaza will not be interoperable with the GSA
card. Currently, the region is planning to migrate to the GSA credential and
replace equipment as necessary.

In the future, these interoperability issues may be addressed as the policy for a
common identification standard evolves.

Procurement Issues

The PBS smart card task order had a limited scope. It basically covered the
equipment and services for the issuance of cards and the readers needed to
equip one building in each region. However, it did not cover all of the equipment
necessary for the issuance nor did it include all of the equipment and services to
install physical access control systems. As a result, regional management has
been procuring equipment and services outside of the PBS task order and this
has led to problems with the ordering and pricing of data capture stations as well
as competition for access systems.

Data Capture Stations: To date, several regions have been making
procurements for the data collection hardware and software, known as data
capture stations. The PBS task order allowed for the purchase of between 2 and
15 stations. In preparing to issue cards in the regions, PBS stated that it would
be supplying each region with one station and that the regions would need to
purchase additional stations on their own. To meet their needs for additional data
capture stations, the regions need to conform to the same equipment provided by
PBS. However, they have been acquiring the equipment from PBS’ contractor


13
   In standards for physical access controls systems published by the Government Smart Card
Interagency Advisory Board (GSC-IAB), a challenge-response system is a permissible
methodology for contact cards. However, the GSC-IAB has not sanctioned using the challenge-
response methodology on a contact-less card as it requires proprietary technology.


                                          Page 10
and subcontractor using multiple purchasing arrangements with inconsistent
pricing and terms.

PBS began purchasing data capture stations through its task order that was
awarded under the GSA Smart Card Contract and required PBS to pay a fee to
FTS. As the regions needed to purchase the stations, the PBS project team
began recommending that the regions use Federal Supply Schedule contracts to
save money. As such, Region 4 purchased a station citing a supply schedule
contract for Financial and Business Solutions14 held by the prime contractor for
the PBS task order and Region 1 purchased two stations citing a supply schedule
contract for General Purpose Commercial Information Technology Equipment15
also held by the prime contractor. However, these supply schedule contracts do
not include smart card equipment such as the data capture station and are out of
scope. These acquisitions were within the dollar threshold for simplified
acquisitions, which allows purchases based on a quotation without a contract in
place. This methodology was essentially used by Region 3, which cited no
contract with its payment.

In addition, the pricing and terms on these purchases have been inconsistent.
The PBS task order price for a data capture station is $4,667.0516, including
labor, set up, support, and training and the related travel costs are to be
reimbursed at actual cost. Under a price quote from the prime contractor to PBS
on January 12, 2004, the regions could purchase additional enrollment stations at
the same price of $4,667.05 including labor, set up, support, and training.
However, in March 2004, Region 1 purchased two stations from the prime
contractor at a total cost of $11,334 or $5,667 per unit and Region 3 received two
stations from the subcontractor for the same price. According to the
subcontractor, the additional charge is for travel and labor related to setting up
the machine and training employees to use the station, although labor was
previously included in the base price of the station. In August 2004, the
subcontractor provided PBS with a new quotation that established a standard
price $4,667 per station and $2,000 charge for on site setup and configuration,
effective through the end of fiscal year 2004. In the future, the costs for data
capture stations will increase more as the subcontractor is currently in the
process of adding data capture stations to its Federal Supply Schedule contract
at a price of $9,694.25.

Access Systems: The PBS task order did not include physical access control
systems. However, the PBS contractor team may have a competitive advantage
on these procurements due to knowledge of the GSA smart card technical
characteristics and its role on the PBS task order.



14
   Contract Number GS-23F-0016J.
15
   Contract Number GS-35F-4338D.
16
   The original negotiated price was $3,067.05, but was increased through a modification to add a
Custom Lighting Array for the equipment.


                                            Page 11
Only PBS’ contractors have full knowledge of the GSA smart card’s technical
characteristics and as a result, the competition on the regional procurements is
being affected. For instance, when Region 1 procured access and control
systems for two of its buildings, there were only two bidders, the PBS prime
contractor and one competitor that had lost on the PBS task order. However, this
competitor initially could not submit a proposal because it lacked technical
information for the GSA card’s data model. Eventually, GSA had to obtain that
from the PBS contractor, so the competitor could submit a bid. Also, when
Region 3 was procuring an access system for its regional office building, this
same competitor complained because GSA was forwarding its questions relating
to the technical aspects of the GSA card to PBS’s subcontractor, who was also
competing on the acquisition. Eventually the competitor declined to submit a
proposal.

Lastly, the subcontractor has been working closely with the PBS project team to
issue the GSA credentials and with the regions in setting up the initial equipment
provided by the PBS National Office. As such, the subcontractor’s role on the
PBS task order also creates the appearance of a competitive advantage. For
example, when Region 3 initiated a procurement to replace the card readers in its
regional office building to make them compatible with the new GSA smart card, it
did not intend to hold a competition. The subcontractor on the PBS task order
had been involved in meetings between Region 3 and the PBS project team, and
after discussions with Region 3 about its future requirements, had been providing
price quotes to the Region. The region had initially planned to make the
procurement on a sole-source basis to the subcontractor through a Federal
Supply Schedule contract. However, after receiving complaints, Region 3 held a
competition. But as discussed above, the subcontractor, as GSA’s technical
expert, fielded its competitor’s technical questions.

Since the PBS task order did not cover the full scope of GSA’s needs, additional
procurements for smart card equipment, systems, and services will need to be
made. In making these procurements, GSA should ensure that these future
procurements comply with proper procurement methods, provide consistent
pricing and terms, and avoid limits on competition.

The Smart Card implementation will be impacted by recent developments.

Two recent developments, specifically the Presidential directive on common
identification standards for Federal employees and contractors and the Federal
Protective Service’s (FPS) smart card building security program, will affect the
current smart card implementation.

On August 27, 2004, a Homeland Security Presidential Directive17 was issued to
provide for a mandatory, Government-wide standard for secure and reliable
forms of identification issued by the Federal Government to employees and

17
     HSPD-12.


                                     Page 12
contractors that will be established within six months of the directive’s date. This
directive has the potential for disrupting the PBS project by adding more
requirements over the issuance of the credentials as well as for their
implementation. For example, the Federal standard for secure and reliable forms
of identification will require sound criteria for verifying an individual’s identity. The
requirements to obtain a GSA credential may not meet this standard because, as
discussed earlier, new GSA employees and contractors may be able to obtain the
GSA credential without security or background checks. As all agencies are
required to have a program in place to meet the standard, GSA may be required
to tighten its controls over the credentials and adjust the implementation.

In addition, FPS is planning to implement a building security program using smart
cards for federal facilities. FPS plans to include a central card management
system that will be linked to agencies’ human resources or payroll database and
that can immediately control access as cardholders enter or leave government
employment. The FPS system would also link the background clearance
investigations process to the issuance of government identification to employees.
FPS also plans to integrate the smart cards access systems into the existing
communications and dispatch networks, called Mega Centers, that currently
monitor security at federal buildings and perform remote troubleshooting of
perimeter building alarms 24 hours per day, 7 days per week.

GSA’s credentialing program and the FPS system have similar objectives and
clearly overlap in some areas. Coordination is especially needed to not only
ensure compatibility with the GSA smart card implementation, but to also clarify
the responsibilities of both agencies with regard to the following:

   •   Who has responsibility for access to GSA properties? According to the
       PBS project team, FPS is responsible for the perimeter security of GSA
       properties, while GSA controls who has the right to access those
       properties. However, this may conflict with FPS’s responsibility to develop
       building access requirements.
   •   Are smart card access systems defined as security equipment? According
       to the Memorandum of Agreement regarding the transfer of FPS from GSA
       to the Department of Homeland Security, control and custody of the
       security equipment purchased and installed by GSA should be transferred
       to FPS and FPS will be responsible for the maintenance, repair, and
       replacement. In discussions, FPS personnel stated that smart card
       access systems are considered security equipment. Conversely,
       according to the PBS project team, the smart card readers are part of the
       card management systems.
   •   Will FPS make smart card access systems mandatory security
       equipment? According to the Memorandum of Agreement between FPS
       and GSA, GSA is responsible for funding security features and equipment
       on new construction and major repair and alteration projects. However, on
       minor repair and alterations projects, GSA only funds non-mandatory
       security enhancements, while FPS is responsible for funding the purchase


                                        Page 13
          of mandatory security equipment. As such, if FPS makes smart card
          systems mandatory for more Federal properties, it may be responsible for
          funding these systems and relieving GSA of that burden.

Although GSA and FPS have been working together at the local level to install
building access systems and have contact at high levels, PBS needs to start
coordinating with FPS on plans for smart card access to federal facilities to
ensure these issues are resolved.

Conclusion

While PBS has been very focused on acquiring the smart card credentials and
has made progress in this area, there are significant gaps in the integration of
smart card technology into the agency’s security process. The agency is buying
smart card technology without fully assessing what its needs are and without
providing the corresponding infrastructure to support these needs. The issuance
of credentials will not result in a nationwide security system if each region
develops its own controls and implements its own supporting infrastructure
independently of each other and organizations such as the CIO and CPO play
only tangential roles.

The Government Smart Card Handbook 18 recommends that, prior to acquiring
smart cards, an agency assess its needs based on such areas as its security
requirements, size and geographic distribution, need for interoperability and
available resources in order to establish the vision, goals and scope for
implementing the smart cards. It is critical that GSA understand its own specific
requirements and goals for the smart card credential. While it is important to
consider future requirements, it is equally important that the program not incur
unneeded expense to obtain technologies that are beyond the agency’s basic
implementation needs.

The vision, goals, and scope for implementing the smart card credential need to
be defined because it is this framework that guides all subsequent decisions
about the card including the card requirements, interoperability, and funding.
While the card has additional functionalities for logical access to information
systems and other uses, it is currently only intended as a credential for physical
access to buildings. The card has some high-level security features yet how
these features fit into our overall security program or when they should be used
has not been defined. Additionally, regions will be responsible for determining
how the cards will be used and providing funding to support their decision. There
are no assurances that the equipment necessary to activate the features or
additional security controls such as physical barriers integrated with card readers
that would make the features more formidable will be funded. Further, these
features appear to be a major factor in the selection of the contractor, as the
technology for some features is not widespread.

18
     Issued by the GSA Office of Governmentwide Policy.


                                             Page 14
The implementation of GSA’s smart card credentials is facing an array of issues
that need to be addressed beginning at the agency level. To accomplish this,
PBS needs to establish an integrated team to consider the options, scope,
opportunities and impacts of the smart card program the agency develops. The
team should include individuals representing the major stakeholders in the
agency’s smart card credentials rather than relying solely on PBS personnel.
Personnel from the CIO, the CPO, FSS, FTS, and regional management are also
essential for the team. Next, in order to achieve interoperability across other
agencies, consideration must be given to the new requirements for a common
identification, consideration also needs to be given to the impact of the FPS
smart card initiative, and other work within the Federal smart card community.
Moreover, arrangements or Memorandum of Understanding must be put in place
if the costs of the card implementation are to be shared across agency
departments, programs, or external agencies. In addition, the funding allocation
formulas should be specified in interagency agreements when multiple programs
or offices are to fund the card platform.

To help carry the smart card credential forward, PBS also needs to reestablish a
physical security function. The physical security function could act as the
champion for the smart card credential within the agency. However, its role
should extend beyond issuing of the smart card credential and include
coordinating the activities needed to implement comprehensive policies and
procedures to enhance the overall agency security as it relates to the smart card
program especially with regard to identity management and physical access. Its
role could also include being the liaison with other Federal entities involved in
building security, such as FPS and the Interagency Security Committee.

Smart card technology is a powerful enabling tool that can greatly improve the
effectiveness and efficiency of the agency. A smart card credential can provide
the basis for new levels of trust, more effective physical access to buildings, and
more secure logical access to information systems with enhanced information
assurance. With such systems, access to buildings and information systems can
be much faster for trusted entrants, while much more effective in preventing
unauthorized access. To achieve these benefits, PBS will need to provide the
leadership to accomplish the vision and goals for the implementation of the smart
card credentials within the agency.

Recommendations

We recommend that the Commissioner of the Public Buildings Service:

   1. Coordinate with other agency officials in the development of the vision,
      goals, and scope for GSA’s smart card implementation as part of the
      agency’s security protocol.
         a. Include representatives from the major stakeholders such as the
             CIO, CPO, and the regions.


                                      Page 15
          b. Establish an integrated project team to implement GSA’s smart card
             credential.

   2. Use the vision, goals, and scope to reassess the smart card credential
      requirements and determine the estimated funding needs for GSA’s smart
      card credential including the costs for implementation, operations, and
      infrastructure.
          a. Ensure the interoperability of the smart card credential and access
              systems by adhering to the specifications and standards set by the
              Federal community and avoid incorporating technology that limits
              interoperability.
          b. Coordinate with FPS regarding building security decisions, smart
              card interoperability, and funding for the smart card infrastructure.
          c. Establish a program to ensure compliance with the Federal
              standard for secure and reliable forms of identification when it is
              issued.

   3. Reestablish a physical security function within the PBS organization.

   4. Re-evaluate and improve the management controls related to smart cards
      and issue additional detailed guidance as necessary.

   5. Ensure smart card credential and physical access system procurements
      comply with acquisition regulations and policies, including competition.


Management Controls

The management controls related to the smart card implementation are weak as
discussed above.


Management Comments

In his January 7, 2005 response to the draft audit report (see Appendix A), the
Commissioner of the Public Buildings Service (P) indicates concurrence with the
report recommendations.




                                      Page 16
AUDIT OF BUILDING ACCESS THROUGH SMART CARDS
       REPORT NUMBER A040111/R/P/R05002

            Management’s Response




                    A-1
A-2
             AUDIT OF BUILDING ACCESS THROUGH SMART CARDS
                    REPORT NUMBER A040111/R/P/R05002


                                        Report Distribution



Commissioner, Public Buildings Service (P) .................................................... 3


Office of the Chief Financial Officer (B) ........................................................... 2


Assistant Inspector General for Auditing (JA, JAO and JAS) ........................... 3


Assistant Inspector General for Investigations (JI)........................................... 1


Branch Chief, Audit Follow-up and Evaluation Branch (BECA)........................ 1




                                                  B-1
